No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
Teresa M. Graham,
Petitioner,
CERTIFICATE OF SERVICE

v.
Sergeant Shannon L. Barnette, et al.,
Respondent.

The undersigned hereby certifies that he is counsel for the
Petitioner in the above-captioned matter, and that on November
23, 2020, he served copies of the following attached documents on
opposing counsel via email as per agreement of opposing counsel:
Certiorari Petition
Appendix
Certificate of Compliance
Said documents were transmitted by email to the following:
Brian Carter, Assistant Minneapolis City Attorney Brian.Carter@minneapolismn.gov
Heather Robertson, Assistant Minneapolis City Attorney Heather.Robertson@minneapolismn.gov
Aaron Winter, Assistant Minnesota Attorney General Aaron.Winter@ag.state.mn.us
Dated: December 28, 2020

s/Jordan S. Kushner
JORDAN S. KUSHNER

